App. 1
919 F.3d 1054
United States Court of Appeals, Eighth Circuit.
Anmarie CALGARO, Plaintiff - Appellant,
v.
ST. LOUIS COUNTY; Linnea Mirsch, individually
and in her official capacity as Director of St. Louis
County Public Health and Human Services; Fairview
Health Services, a Minnesota nonprofit corporation;
Park Nicollet Health Services, a nonprofit corporation; St. Louis County School District; Michael Johnson, individually and in his official capacity as
Principal of the Cherry School, St. Louis County
School District; E.J.K., Defendants - Appellees.
World Professional Association for Transgender
Health, Amicus on Behalf of Appellee(s),
Foundation for Moral Law, Amicus on
Behalf of Appellant(s).
No. 17-2279
Submitted: October 16, 2018
Filed: March 25, 2019
Appeal from United States District Court
for the District of Minnesota – Minneapolis
Attorneys and Law Firms
Thomas J. Brejcha, THOMAS MORE SOCIETY, Chicago, IL, Matthew F. Heffron, BROWN & BROWN,
Omaha, NE, Erick G. Kaardal, MOHRMAN & KAARDAL, Minneapolis, MN, for Plaintiff - Appellant.

App. 2
Nick D. Campanario, Assistant County Attorney,
COUNTY ATTORNEY’S OFFICE, Duluth, MN, for
Defendants - Appellees St. Louis County and Linnea
Mirsch.
William Lawrence Davidson, Joao C.J.G. De Medeiros,
Paul C. Peterson, LIND & JENSEN, Minneapolis, MN,
for Defendant - Appellee Fairview Health Services.
David M. Wilk, LARSON & KING, Saint Paul, MN, for
Defendant - Appellee Park Nicollet Health Services.
Trevor S. Helmers, Liz J. Vieira, RUPP & ANDERSON,
Minneapolis, MN, for Defendants - Appellees St. Louis
County School District and Michael Johnson.
Martin S. Chester, Emily Elizabeth Chow, FAEGRE &
BAKER, Minneapolis, MN, Asaf Orr, Christopher F.
Stoll, NATIONAL CENTER FOR LESBIAN RIGHTS,
San Francisco, CA, for Defendant - Appellee.
Maureen Alger, COOLEY LLP, Palo Alto, CA, Adam
Gershenson, Cooley LLP, Boston, MA, Reed A. Smith,
Cooley LLC, New York, NY, for Amicus on Behalf of Appellee World Professional Association for Transgender
Health.
John Allen Eidsmoe, FOUNDATION FOR MORAL
LAW, Montgomery, AL, for Amicus on Behalf of Appellee Foundation for Moral Law.
Before WOLLMAN, COLLOTON, and BENTON, Circuit Judges.

App. 3
Opinion
COLLOTON, Circuit Judge.
Anmarie Calgaro sued several parties alleging violations of her parental rights over one of her minor
children under the Due Process Clause of the Fourteenth Amendment. The district court1 granted the defendants’ dispositive motions and dismissed the
complaint with prejudice. Calgaro appeals, and we affirm.
According to Calgaro’s complaint, she is the
mother of E.J.K. and three younger, minor children. In
May 2015, E.J.K. moved out of Calgaro’s home in St.
Louis County, Minnesota. Calgaro never surrendered
her parental rights, but E.J.K. obtained a letter from
Mid-Minnesota Legal Aid describing E.J.K.’s father
and Calgaro as “hav[ing] given up control and custody
of their child.” The letter concluded that E.J.K. was
therefore “legally emancipated under Minnesota law.”
Although this letter from a legal aid association
had no legal effect, E.J.K. presented the letter to several state agencies as evidence of emancipation. Under
Minnesota law, a child under age eighteen is eligible
for general public assistance if she is “legally emancipated.” Minn. Stat. § 256D.05, subdiv. 1(a)(9). Based
on E.J.K.’s claims of emancipation, St. Louis County
provided E.J.K. with funding for medical services
and other living expenses, and E.J.K. obtained gender
1

The Honorable Paul A. Magnuson, United States District
Judge for the District of Minnesota.

App. 4
transition care from Park Nicollet Health Services.
E.J.K. also received prescription medication from Fairview Health Services. Both providers thought E.J.K.
could give effective consent to treatment under Minnesota law because she was living apart from her parents
and managing her personal financial matters. See
Minn. Stat. § 144.341.
When Calgaro attempted to acquire E.J.K.’s medical records from Park Nicollet and Fairview, both providers denied her request under the standard of
Minnesota Statutes § 144.346. That provision allows
disclosure of treatment information if “failure to inform the parent or guardian would seriously jeopardize the health of the minor patient.” Id. Calgaro also
approached the St. Louis County School District and
Michael Johnson, the principal of E.J.K.’s high school,
requesting access to E.J.K.’s educational records and
an opportunity to participate in certain educational decisions. Johnson and the School District denied those
requests.
Calgaro then sued St. Louis County, the interim
director of St. Louis County Public Health and Human
Services (individually and in her official capacity),
medical providers Fairview and Park Nicollet, the St.
Louis County School District, Principal Johnson (individually and in his official capacity), and E.J.K., as an
interested party. She alleged that the defendants had
violated a fundamental right of a parent, under the
Due Process Clause, to make decisions concerning the
care, custody, and control of her children. Calgaro
claimed damages and also sought declaratory and

App. 5
injunctive relief that would prevent the defendants
from providing services to any of her minor children
until a state court adjudicated the scope of her parental rights.
Calgaro moved for summary judgment, and the
defendants filed cross-motions in response. St. Louis
County moved for judgment on the pleadings and for
summary judgment, and the other defendants moved
to dismiss for failure to state a claim. The district court
granted the defendants’ motions, denied Calgaro’s motion, and dismissed the complaint with prejudice. We
review those dismissals de novo.
The district court properly granted judgment on
the pleadings for St. Louis County (including the
official-capacity claim against the interim director) because Calgaro did not adequately plead a claim under
§ 1983. A county may be liable for a constitutional violation under § 1983 only if the violation resulted from
a policy or custom of the municipality. Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 694, 98 S.Ct. 2018, 56
L.Ed.2d 611 (1978). There is no respondeat superior liability for actions of an individual employee. Id. at 691,
98 S.Ct. 2018. Although Calgaro alleges that the
County’s “policies, customs, practices, or procedures (or
lack of procedures)” led to violations of her due process
rights, she never specified a policy or custom that was
the moving force behind the alleged violation. She
pleads only that the County “determined” that E.J.K.
was emancipated and paid for her medical services.
But one erroneous determination by a county employee that E.J.K. was emancipated does not establish

App. 6
a policy or custom of the County that deprives parents
of their constitutional rights. Calgaro’s conclusory assertion that the County acted based on a policy or custom is insufficient to state a claim, and the district
court correctly granted judgment on the pleadings.
Calgaro also fails to state a claim for damages
against the then-interim director of Public Health and
Human Services, Linnea Mirsch. The complaint lists
Mirsch’s position and title, and alleges that “[t]he director is the final decision and policy maker for the Department.” But the complaint does not allege that
Mirsch personally took any action that violated Calgaro’s constitutional rights, and Mirsch cannot be held
liable for the unconstitutional acts of her subordinates.
Ashcroft v. Iqbal, 556 U.S. 662, 676, 129 S.Ct. 1937, 173
L.Ed.2d 868 (2009). The district court correctly ruled
that Calgaro failed to state a claim against Mirsch in
her individual capacity.
Calgaro’s claims for money damages against the
medical providers fare no better. To state a claim under
§ 1983, Calgaro must show that Park Nicollet and Fairview acted “under color of state law.” Am. Mfrs. Mut.
Ins. Co. v. Sullivan, 526 U.S. 40, 49-50, 119 S.Ct. 977,
143 L.Ed.2d 130 (1999). Although both facilities provided medical services to E.J.K. without parental consent, and allegedly honored E.J.K.’s consent in
accordance with § 144.341 of the Minnesota Statutes,
these actions did not transform either medical provider into a state actor. 526 U.S. at 52, 119 S.Ct.
977. Calgaro contends that the providers exercised a
“public function” by terminating her parental rights

App. 7
concerning health care decisions, but this claim mischaracterizes what happened. Section 144.341 states
that certain minors may give effective consent to medical services, but a provider does not terminate parental rights by recognizing a minor’s consent, even if the
provider is mistaken. Only a Minnesota court can terminate parental rights. See Minn. Stat. § 260C.301.
Calgaro next claims that the St. Louis County
School District (including Principal Johnson in his official capacity) violated her rights by carrying out a
“policy, practice, and custom” of declining to give notice
or to hold a hearing with parents before determining
that a minor student is emancipated. We agree with
the district court that Calgaro alleged only a legal conclusion on this point. The complaint identifies no actual policy or established custom of the District about
making emancipation determinations. Calgaro cites
only the single incident at issue here, in which the District refused to disclose E.J.K.’s educational records or
to allow Calgaro to participate in E.J.K.’s educational
decisions. The District’s alleged handling of this particular case, even assuming that it interfered with Calgaro’s constitutional rights, is insufficient to establish
a custom or practice under Monell. 436 U.S. at 694, 98
S.Ct. 2018.
Calgaro also sued Johnson individually for damages on the ground that he violated her constitutional
rights by denying access to educational records and excluding her from educational decisions. But it remains
“open to question whether and to what extent the fundamental liberty interest in the custody, care, and

App. 8
management of one’s children mandates parental access to school records.” Schmidt v. Des Moines Pub.
Sch., 655 F.3d 811, 819 (8th Cir. 2011). Nor is it clearly
established that parents have a constitutional right to
manage all details of their children’s education or to
obtain consultation with school officials on everyday
matters. See Stevenson v. Blytheville Sch. Dist. #5, 800
F.3d 955, 966 (8th Cir. 2015). Because existing precedent does not clearly establish the rights that Calgaro
asserts, Johnson is entitled to qualified immunity. Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131 S.Ct. 2074, 179
L.Ed.2d 1149 (2011).
Calgaro’s remaining claims for declaratory and injunctive relief against the several defendants are moot.
E.J.K. has turned eighteen years old, ceased to be a minor under Minnesota law, and completed her education
in the St. Louis County School District. See Minn. Stat.
§ 645.451, subdiv. 2. There is no ongoing case or controversy over Calgaro’s parental rights to make decisions
for E.J.K. as a minor or to access her medical or educational records. That Calgaro has three other minor
children does not preserve a controversy. There is an
exception to mootness for cases that are capable of repetition yet evading review, but the exception applies
only when there is a reasonable expectation that the
alleged actions of the defendant will recur. Murphy v.
Hunt, 455 U.S. 478, 482, 102 S.Ct. 1181, 71 L.Ed.2d 353
(1982) (per curiam). Calgaro seeks an injunction
against actions directed toward “the minor children
of Ms. Calgaro deemed emancipated by Defendants
without Ms. Calgaro’s consent.” But Calgaro has not

App. 9
established a reasonable expectation that any of her
three minor children will be deemed emancipated by
the defendants. The claims for declaratory and injunctive relief are therefore moot.
E.J.K. was joined in the lawsuit as an interested party under Federal Rule of Civil Procedure
19(a)(1)(B)(i). Given that none of Calgaro’s claims
against the other defendants may proceed, the district
court properly dismissed any claims against E.J.K. as
well.
The judgment of the district court is affirmed.

App. 10
2017 WL 2269500
United States District Court, D. Minnesota.
Anmarie CALGARO, Plaintiff,
v.
ST. LOUIS COUNTY, Linnea Mirsch,
Fairview Health Services, Park Nicollet
Health Services, St. Louis County School District,
Michael Johnson, and E.J.K.1, Defendants.
Case No. 16-cv-3919 (PAM/LIB)
Signed 05/23/2017
Attorneys and Law Firms
Erick G. Kaardal, Mohrman, Kaardal & Erickson, P.A.,
Minneapolis, MN, Matthew F. Heffron, Brown & Brown
PC LLO, Omaha, NE, Thomas Brejcha, Thomas More
Society, Chicago, IL, for Plaintiff.
Nick D. Campanario, St. Louis County Attorney’s Office, Duluth, MN, Joao C.J.G. De Medeiros, Paul C. Peterson, William L. Davidson, Lind, Jensen, Sullivan &
Peterson, P.A., Elizabeth J. Vieira, Trevor S. Helmers,
Rupp, Anderson, Squires & Waldspurger, Aaron P.
Knoll, Cicely R. Miltich, Emily E. Chow, Martin S.
Chester, Michael A. Ponto, Faegre Baker Daniels, LLP,
Minneapolis, MN, David M. Wilk, Stephanie L. Chandler, Larson King, LLP, Saint Paul, MN, Asaf Orr,

1

Although referred to as J.D.K. in Calgaro’s Complaint, the
Court uses the name, initials, and pronouns consistent with
E.J.K.’s female gender identity.

App. 11
Christopher F. Stoll, National Center for Lesbian
Rights, San Francisco, CA, for Defendants.
MEMORANDUM AND ORDER
Paul A. Magnuson, United States District Court Judge
This matter is before the Court on Plaintiff
Anmarie Calgaro’s Motion for Summary Judgment,
Defendants St. Louis County’s and Linnea Mirsch’s
Motions for Judgment on the Pleadings and Summary
Judgment, and Defendants Park Nicollet Health Services’, Fairview Health Services’, St. Louis County
School District’s, Michael Johnson’s, and E.J.K.’s Motions to Dismiss. For the following reasons, Defendants’ Motions are granted and Calgaro’s Motion is
denied.
BACKGROUND
E.J.K. is a 17-year-old transgender youth who
identifies as female. (Compl. (Docket No. 1) ¶¶ 18, 32,
104, Ex. C.) She will turn 18 in less than two months.
(Id. ¶ 3.) Calgaro is E.J.K.’s biological mother and has
sole physical and joint legal custody of E.J.K. (Id. ¶¶ 3,
44.)
Sometime in 2015, E.J.K. moved out of Calgaro’s
home in St. Louis County, Minnesota and moved in
with her biological father in St. Cloud. (Id. ¶¶ 3, 53.)
Shortly thereafter, E.J.K. moved out of her father’s
home and began living with various family and friends.
(Id. ¶ 53.) Since moving out of her father’s home, E.J.K.

App. 12
has refused to move back in with Calgaro. (Id.) Calgaro
claims that she has always offered a home to E.J.K. (Id.
¶ 50.)
E.J.K. currently lives on her own in St. Louis
County. (Id. ¶ 18.) She attends the Cherry School in the
St. Louis County School District (the “School District”)
and enrolled herself in post-secondary educational opportunities at a local college. (Id. ¶ 14.) On June 29,
2015, E.J.K. consulted a lawyer with Mid-Minnesota
Legal Aid who provided her with a letter that concluded she was legally emancipated under Minnesota
law. (Compl. Ex. A.) E.J.K. has never obtained a court
order of emancipation. (Id. ¶ 38.)
Sometime before January 15, 2016, Park Nicollet
and Fairview began providing E.J.K. with medical
treatment for a gender transition to the female gender.
(Id. ¶¶ 10, 12, Ex. C.) Calgaro alleges that St. Louis
County is providing E.J.K. with general government
assistance and paying for these medical services. (Id.
¶¶ 54, 102.) Sometime in 2016, Calgaro requested that
Fairview and Park Nicollet provide her with E.J.K.’s
medical records, but they refused. (Compl. ¶¶ 113, 114,
118.) Also in 2016, Calgaro requested that the School
District allow her to participate in E.J.K.’s educational
decisions and to have access to E.J.K.’s educational
records, but the School District refused. (Id. ¶¶ 134,
135.)
On November 16, 2016, Calgaro filed this lawsuit
against seven Defendants: (1) St. Louis County; (2)
Linnea Mirsch, individually and in her official capacity

App. 13
as Interim Director of St. Louis County Public Health
and Human Services; (3) Fairview; (4) Park Nicollet;
(5) the School District; (6) Michael Johnson, individually and in his official capacity as Principal of the
Cherry School (“Principal Johnson”); and (7) E.J.K.
(collectively, “Defendants”). Calgaro is suing Defendants under 42 U.S.C. § 1983 for allegedly violating her
Fourteenth Amendment procedural due process rights.
Calgaro alleges that Defendants terminated her constitutionally protected parental rights without due
process by determining E.J.K. emancipated without
notifying her, providing E.J.K. with medical services
and government assistance without Calgaro’s consent,
and refusing to provide Calgaro with E.J.K.’s medical,
governmental, and educational records.
Twelve days after filing a Complaint, Calgaro filed
her Motion for Summary Judgment. Park Nicollet,
Fairview, the School District, Principal Johnson, and
E.J.K. each subsequently filed Motions to Dismiss. St.
Louis County and Mirsch also filed a Motion for Judgment on the Pleadings and a Motion for Summary
Judgment.
DISCUSSION
A. Motions to Dismiss and the Motion for Judgment on the Pleadings
To survive a motion to dismiss for failure to state
a claim, a complaint “must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,

App. 14
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)); see also Fed. R. Civ. P. 12(b)(6). A claim
bears facial plausibility when it allows the Court “to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. When evaluating
a motion to dismiss, the Court must accept factual allegations as true, Gomez v. Wells Fargo Bank, N.A., 676
F.3d 655, 660 (8th Cir. 2012), but it need not give effect
to those that simply assert legal conclusions, McAdams
v. McCord, 584 F.3d 1111, 1113 (8th Cir. 2009).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements,” are insufficient to support a claim. Iqbal, 556 U.S. at 678. The
same standard that applies to a motion to dismiss under Rule 12(b)(6) applies to a motion for judgment on
the pleadings under Rule 12(c). Haney v. Portfolio Recovery Assocs., L.L.C., 837 F.3d 918, 924 (8th Cir. 2016)
(per curiam).
1. Emancipation
Throughout her 229-paragraph Complaint, Calgaro repeatedly alleges that Defendants “determined
[E.J.K.] emancipated.” (See, e.g., Compl. ¶ 138.) This
allegation is distracting for two reasons. First, Defendants legally cannot emancipate E.J.K. In Minnesota,
emancipation is an act of the parent and need not be
in writing or in express words. In re Fiihr, 184 N.W.2d
22, 25 (Minn. 1971) (citation omitted). “Whether a child
has been emancipated must be determined largely
upon the peculiar facts and circumstances of each case
and is ordinarily a question for the jury.” Id. Calgaro

App. 15
does not dispute this. (See Compl. ¶ 40 (“Minnesota
courts recognize that [E.J.K.] as a minor child is not
emancipated until a state court decides the minor child
[E.J.K.] is emancipated.”).) Calgaro also admits that
E.J.K. has not obtained a court order of emancipation.
(Id. ¶ 38.) Defendants therefore did not emancipate
E.J.K. and Calgaro continues to have sole physical and
joint legal custody of E.J.K. Second, even assuming Defendants determined E.J.K. emancipated—as the
Court must do at this stage of the litigation—Defendants’ emancipation determinations did not terminate
Calgaro’s parental rights. Only a court order can do
so. Absent that, Calgaro’s parental rights over E.J.K.
remain intact. The Court will therefore not further
entertain Calgaro’s characterization of Defendants’
actions as “determining E.J.K. emancipated,” except
when necessary to address one of Calgaro’s claims
against St. Louis County.
2. Fairview and Park Nicollet
To state a claim under § 1983, Calgaro must establish that Fairview and Park Nicollet deprived her of a
right secured by the Constitution or laws of the United
States and that the deprivation was committed under
color of state law. Am. Mfrs. Mut. Ins. Co. v. Sullivan,
526 U.S. 40, 49 (1999). Calgaro alleges that Fairview
and Park Nicollet deprived her of her constitutionally
protected parental rights without due process by
providing E.J.K. with medical services without Calgaro’s consent and refusing to provide Calgaro with
E.J.K.’s medical records. (Compl. ¶¶ 11, 13, 188, 197.)

App. 16
Fairview and Park Nicollet argue that they cannot be
held liable under § 1983 because they did not act under
color of state law. Fairview and Park Nicollet are correct.
“Section 1983 secures most constitutional rights
from infringement by governments, not private parties.” Crumpley-Patterson v. Trinity Lutheran Hosp.,
388 F.3d 588, 590 (8th Cir. 2004) (citation omitted). But
private parties may be held liable when they act under
color of state law. Id. (citation omitted). A private party
acts under color of state law when they are a “willful
participant in joint activity with the state.” Magee v.
Trustees of Hamline Univ., Minn., 747 F.3d 532, 536
(8th Cir. 2014) (quotations and citation omitted).
Fairview and Park Nicollet did not willfully participate in any joint activity with the state. Fairview
and Park Nicollet are private, non-profit corporations
that provide medical services to the public. Merely because they are extensively regulated by the state and
receive state funding does not mean that they willfully
participate in joint activity with the state. See Alexander v. Pathfinder, Inc., 189 F.3d 735, 740 (8th Cir. 1999).
Likewise, merely because Fairview and Park Nicollet
provided E.J.K. with medical services under Minn.
Stat. § 144.341 does not mean they willfully participated in joint activity with the state. See Sullivan, 526
U.S. at 52 (“Action taken by private entities with the
mere approval or acquiescence of the State is not state
action.”). Because Fairview and Park Nicollet did not
willfully participate in joint activity with the state,
they did not act under color of state law. Calgaro

App. 17
therefore fails to state a claim against Fairview and
Park Nicollet upon which relief can be granted.
3. The School District
Calgaro alleges that the School District deprived
her of her constitutionally protected parental rights by
not allowing Calgaro to participate in E.J.K.’s educational decisions and denying her access to E.J.K.’s educational records. (Compl. ¶¶ 14, 76, 134-38.) The
School District argues that Calgaro has failed to plausibly allege that the execution of a School District policy or custom caused the deprivation of Calgaro’s
parental rights. The School District is correct.
Local governmental bodies like the School District
“may not be sued under § 1983 for an injury inflicted
solely by its employees or agents.” Monell v. Dep’t of
Soc. Servs. of City of N.Y., 436 U.S. 658, 694 (1978). It
is only when “execution of a government’s policy or custom . . . inflicts the injury that the government as an
entity is responsible under § 1983.” Id.
Calgaro fails to provide any facts that the School
District executed a policy or custom that deprived Calgaro of her parental rights without due process. Instead, Calgaro merely states in conclusory fashion that
“[t]he School District’s policies, customs, practices, or
procedures (or lack of procedures), acting under the
color of state law, were the moving force behind the
constitutional violations.” (Compl. ¶ 15.) But the “mere
invocation of the words ‘policies’ and ‘customs’ is insufficient to plead a Monell claim.” Rickmyer v. Browne,

App. 18
995 F. Supp. 2d 989, 1030 (D. Minn. 2014) (Nelson, J.).
Calgaro therefore fails to state a claim against the
School District upon which relief can be granted.
4. Principal Johnson
Calgaro alleges that Principal Johnson also deprived her of her constitutionally protected parental
rights by not allowing Calgaro to participate in E.J.K.’s
educational decisions and denying her access to
E.J.K.’s educational records. (Compl. ¶¶ 76, 136, 137.)
Principal Johnson argues that he is entitled to qualified immunity. Principal Johnson is correct.
Qualified immunity applies unless the government official’s conduct “violated a clearly established
constitutional right.” Pearson v. Callahan, 555 U.S.
223, 232 (2009). The purpose of qualified immunity is
to “give government officials breathing room to make
reasonable but mistaken judgments about open legal
questions.” Ashcroft v. al-Kidd, 563 U.S. 731, 743
(2011).
The Eighth Circuit has explicitly left open the
question “whether and to what extent the fundamental
liberty interest in the custody, care, and management
of one’s children mandates parental access to school
records.” Schmidt v. Des Moines Pub. Sch., 655 F.3d
811, 819 (8th Cir. 2011). The only other circuit to have
ruled on this issue has held that a noncustodial parent
does not have a protected liberty interest in receiving
their children’s school records. Crowley v. McKinney,
400 F.3d 965, 968-71 (7th Cir. 2005). Because this

App. 19
existing precedent does not place the constitutional
question “beyond debate,” Principal Johnson is entitled
to qualified immunity. Ashcroft, 563 U.S. at 741.
5. St. Louis County
Calgaro alleges that St. Louis County deprived her
of her constitutionally protected parental rights without due process by refusing to provide Calgaro with
E.J.K.’s governmental records, providing E.J.K. with
general government assistance without Calgaro’s consent, and providing E.J.K. with medical assistance
without Calgaro’s consent. St. Louis County has moved
for judgment on the pleadings regarding the general
government assistance and governmental records
claims. St. Louis County argues that Calgaro has failed
to allege that a St. Louis County policy or custom deprived her of her parental rights without due process.
St. Louis County is correct, but not exactly for the reasons it argues.
Like the School District, St. Louis County “may
not be sued under § 1983 for an injury inflicted solely
by its employees or agents.” Monell, 436 U.S. at 694. It
is only when “execution of a government’s policy or custom . . . inflicts the injury that the government as an
entity is responsible under § 1983.” Id. Furthermore,
when a municipality is acting under compulsion of
state or federal law, “it is the policy contained in that
state or federal law, rather than anything devised or
adopted by the municipality, that is responsible for the
injury.” Bethesda Lutheran Homes & Servs., Inc. v.

App. 20
Leean, 154 F.3d 716, 718 (7th Cir. 1998). Although the
Eighth Circuit has not decided whether to adopt this
common-sense limitation on municipal liability under
§ 1983, see Slaven v. Engstrom, 710 F.3d 772, 781 n.4
(8th Cir. 2013), every circuit to have ruled on this issue
has done so. See Vives v. City of New York, 524 F.3d
346, 353 (2d Cir. 2008) (collecting and analyzing cases).
St. Louis County provided E.J.K. with general
government assistance under Minn. Stat. § 256D.03,
which provides that every county “shall provide general assistance to persons residing within its jurisdiction who meet the need requirements of sections
256D.01 to 256D.21.” Minn. Stat. § 256D.03, subd. 1.
St. Louis County argues that because it is required to
provide general government assistance to E.J.K. under
this statute, it is the policy of the state of Minnesota,
rather than St. Louis County, that allegedly deprived
Calgaro of her constitutionally protected parental
rights without due process. But the state does not require St. Louis County to provide E.J.K. with general
assistance.
Minn. Stat. 256D.03 requires St. Louis County to
provide E.J.K. with general government assistance if
she meets the need requirements of sections 256D.01
to 256D.21. E.J.K. meets those need requirements if
she does not have adequate income and is “a child under the age of 18 who is not living with a parent, stepparent, or legal custodian, and only if: the child is
legally emancipated or living with an adult with the
consent of an agency acting as a legal custodian. . . .”

App. 21
Minn. Stat. § 256D.05, subd. 1(a)(10). For purposes of
this clause:
‘legally emancipated’ means a person under
the age of 18 years who: (i) has been married;
(ii) is on active duty in the uniformed services
of the United States; (iii) has been emancipated by a court of competent jurisdiction; or
(iv) is otherwise considered emancipated under Minnesota law, and for whom county social services has not determined that a social
services case plan is necessary, for reasons
other than the child has failed or refuses to
cooperate with the county agency in developing the plan.
Id. As previously discussed, E.J.K. has not been emancipated by a Minnesota court. And the other three ways
E.J.K. could be considered legally emancipated under
the statute are likewise inapplicable. Thus, it is not the
policy contained in the state law that is responsible for
the alleged constitutional deprivation, rather it is St.
Louis County’s decision to provide E.J.K. with general
government assistance, although not required to do so,
that allegedly deprived Calgaro of her constitutionally
protected parental rights without due process.
This technicality, however, does not save Calgaro’s
general assistance claim against St. Louis County.
Calgaro still fails to allege any specific facts that
St. Louis County has a policy or custom that provides
non-emancipated minors with general government
assistance in contradiction of state law. For example,
Calgaro does not allege that St. Louis County has ever

App. 22
provided general government assistance to a nonemancipated minor before doing so with E.J.K. Nor
does Calgaro allege that St. Louis County has ever provided any individual with government assistance in
contradiction with state law. Instead, Calgaro once
again merely alleges in conclusory fashion that “St.
Louis County’s policies, customs, practices, or procedures (or lack of procedures), acting under the color of
state law, were the moving force behind the constitutional violations asserted in this Complaint.” (Compl.
¶ 5.) Such a conclusory allegation is insufficient to support Calgaro’s general government assistance claim
against St. Louis County. See Rickmyer, 995 F. Supp. 2d
at 1030. Calgaro’s claim concerning St. Louis County’s
refusal to provide her with E.J.K.’s governmental records fails for the same reason.
6. Mirsch
Calgaro fails to state a claim against Mirsch upon
which relief can be granted because Calgaro fails to allege that Mirsch was personally involved in depriving
Calgaro of her parental rights without due process. To
establish Mirsch’s personal liability under § 1983, Calgaro must allege “specific facts of personal involvement
in, or direct responsibility for, a deprivation of [her]
constitutional rights.” Clemmons v. Armontrout, 477
F.3d 962, 967 (8th Cir. 2007) (quotations and citation
omitted). Calgaro utterly fails to do this.
Calgaro mentions Mirsch only twice in her Complaint. (Compl. ¶¶ 8-9.) Calgaro alleges that Mirsch is

App. 23
the interim director of the St. Louis County Health and
Human Services Department and that she is the final
decision- and policy-maker in the department. (Id. ¶ 8.)
Calgaro also alleges that Mirsch is an agent, representative, or employee of the department, and as such
is acting under color of state law. (Id. ¶ 9.) These two
general allegations do not come close to alleging specific facts of Mirsch’s personal involvement in, or direct
responsibility for, a deprivation of Calgaro’s constitutional rights. Calgaro therefore fails to state a claim
against Mirsch upon which relief can be granted.
7. E.J.K.
Calgaro stops short of making the absurd argument that E.J.K. deprived Calgaro of her parental
rights without due process while acting under color of
state law. Calgaro merely argues that E.J.K. is a required party who must be joined in the action because
E.J.K. “claims an interest relating to the subject of the
action and is so situated that disposing of the action
may as a practical matter impair or impede the person’s ability to protect the interest.” Fed. R. Civ. P.
19(a)(1)(B)(i). Although E.J.K. likely is a required
party under Rule 19, because Calgaro’s claims against
all other Defendants fail, any claims she might raise
against E.J.K. are likewise dismissed.
B. Motions for Summary Judgment
Summary judgment should be granted “if the movant shows that there is no genuine dispute as to any

App. 24
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The moving
party bears “the initial responsibility of informing the
. . . court of the basis for its motion, and identifying
those portions of the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
the affidavits, if any, which it believes demonstrate the
absence of a genuine issue of material fact.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986) (internal quotations omitted). Where the moving party makes such
a showing, the burden shifts to the nonmoving party,
who must demonstrate the existence of specific facts in
the record that create a genuine issue for trial. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 256 (1986). A
party opposing a properly supported motion for summary judgment may not rest upon mere allegations or
denials and must do more than simply show that there
is some metaphysical doubt as to the material facts.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986).
1. St. Louis County
St. Louis County moved for summary judgment on
Calgaro’s allegation concerning government assistance of medical payments because the state of Minnesota, not St. Louis County, provided E.J.K. with that
assistance. (See Waldriff Decl. (Docket No. 39) ¶¶ 6-7.)
Calgaro does not dispute this. In fact, Calgaro utterly
fails to respond to St. Louis County’s Motion for Summary Judgment. (See generally Pl.’s Opp’n Memo.
(Docket No. 65).) This allegation is therefore deemed

App. 25
abandoned and summary judgment is appropriate. See
Truong v. Hassan, No. 13cv2947, 2015 WL 2341979, at
*7 (D. Minn. May 14, 2015) (Montgomery, J.) (considering state-law claims abandoned after plaintiff failed to
respond in his opposition memorandum to defendant’s
summary judgment motion).
2. Calgaro
Because her claims are meritless, Calgaro is not
entitled to summary judgment.
CONCLUSION
Calgaro has failed to plausibly allege any § 1983
claims against Defendants. Accordingly, IT IS HEREBY
ORDERED that:
1. Calgaro’s Motion for Summary Judgment
(Docket No. 6) is DENIED;
2. Park Nicollet’s Motion to Dismiss (Docket
No. 15) is GRANTED;
3. E.J.K.’s Motion to Dismiss (Docket No. 24)
is GRANTED;
4. Fairview’s Motion to Dismiss (Docket No.
28) is GRANTED;
5. The School District’s and Principal Johnson’s Motion to Dismiss (Docket No. 31) is
GRANTED;
6. St. Louis County’s and Mirsch’s Motion
for Judgment on the Pleadings and Motion for

App. 26
Summary Judgment (Docket No. 34) are
GRANTED; and
7. Calgaro’s Complaint (Docket No. 1) is
DISMISSED with prejudice.
LET JUDGMENT BE ENTERED ACCORDINGLY.

